U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 6, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Heon-Cheol Chi v. United States of America,
S.Ct. No. 19-1000

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 6,
2020, and placed on the docket on February 10, 2020. The government's response is due on
March 11, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 10, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1000
CHI, HEON-CHEOL
USA

BENJAMIN L. COLEMAN
COLEMAN & BALOGH LLP
1350 COLUMBIA STREET
SUITE 600
SAN DIEGO, CA 92101
619-794-0420
BLC@COLEMANBALOGH.COM

